1a
APPENDIX A
IN THE COURT OF APPEALS OF MARYLAND
————
Petition Docket No. 8
September Term, 2021
(No. 2146, Sept. Term, 2019
Court of Special Appeals)
(No. 08-K-17-000083,
Circuit Court for Charles County)
————
MIGUEL ANGEL SANTANA
v.
STATE OF MARYLAND
————
ORDER
Upon consideration of the petition for a writ of
certiorari to the Court of Special Appeals and the
answer filed thereto, in the above-captioned case, it is
this 23rd day of April, 2021
ORDERED, by the Court of Appeals of Maryland,
that the petition be, and it is hereby, DENIED as there
has been no showing that review by certiorari is
desirable and in the public interest.
/s/ Mary Ellen Barbera
Chief Judge

2a
APPENDIX B
UNREPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
————
No. 2146
September Term, 2019
Circuit Court for Charles County
Case No. 08-K-17-000083
————
MIGUEL ANGEL SANTANA
v.
STATE OF MARYLAND
————
Reed,
Wells,
Gould,
JJ.
————
Opinion by Wells, J.
————
Filed January 15, 2021
————
* This is an unreported opinion, and it may not be
cited in any paper, brief, motion, or other document
filed in this Court or any other Maryland Court as
either precedent within the rule of stare decisis or as
persuasive authority. Md. Rule 1-104.

3a
A jury empaneled in the Circuit Court for Charles
County heard evidence that appellant, Miguel Angel
Santana, participated with two others in the killing
of a third man. At the close of the State’s case and at
the close of all the evidence, Santana moved for a
judgment of acquittal on the basis that the State’s
case rested on the uncorroborated testimony of an
accomplice. The trial court denied both of Santana’s
motions.
The jury convicted Santana of (1) conspiracy to
commit first-degree murder and (2) illegal possession
of a firearm by a disqualified person. The jury failed
to reach a verdict on the remaining four counts: firstdegree murder, use of a firearm in a violent felony,
wearing, carrying, and transporting of a handgun on
the person and wearing, carrying, and transporting
of a handgun on a public road. The court declared a
mistrial on those counts. The court sentenced Santana
to life in prison on December 12, 2019.
Santana filed a timely Notice of Appeal to this
Court on December 3, 2019 and moved to stay retrial
pending this appeal. The trial court granted the
motion. Santana presents three questions for our
review, which we reprint verbatim:
I. Did the State fail to corroborate the testimony of Santana’s alleged accomplice
and, thus, fail to present evidence that
Santana conspired to commit first-degree
murder or possessed a firearm?
II. Did the State unlawfully secure a conviction on the basis of false testimony,
where key witnesses for the prosecution
gave testimony that was acknowledged

4a
by the State and the trial court to be
unfounded or false?
III. Did the State’s assertion of facts not in
evidence during its closing argument,
and the court’s failure to issue a curative
instruction to the jury, potentially influence the verdict?
For the reasons we discuss, we hold that the State
sufficiently corroborated the accomplice’s testimony,
which thus made sufficient evidence on which to base
Santana’s convictions. The State did not secure either
of Santana’s convictions from false or unfounded testimony. The prosecutor’s comments during closing argument did not create reversible error. We, therefore,
affirm.
FACTUAL BACKGROUND
Lydell Wood was shot and killed on January 6, 2016
in Waldorf, Maryland on Rooks Head Place. Although
witnesses were unable to immediately identify the
shooters, based on interviews with Wood’s family and
friends, the Charles County Sheriff’s Office generated
multiple suspects, including individuals who had
ongoing feuds with Wood and his family. The State’s
theory was that the appellant, Miguel Santana, went
looking for a man named “Molly G,” who had shot at
Santana during an altercation one afternoon. Later
that same afternoon, Santana sought revenge against
Molly G, but unable to find him, Santana instead shot
Wood under the mistaken belief that Wood was Molly
G’s associate.
A. Events Leading up to Wood’s Murder
The events that occurred prior to Wood’s death
explain the State’s theory of why he was killed. On the

5a
afternoon of January 6, 2016, Wood was with Donald
Savoy. Both men were walking with a man identified
in the record only by the sobriquet “Molly G.” According to Savoy’s trial testimony, at one point during
their walk, Molly G got into an argument with two
other men. The argument led to a scuffle, and Molly G
shot at the men with whom he was arguing. Molly G
then ran toward Rooks Head Place. According to
Savoy, Wood was standing behind Molly G when Molly
G fired at the two men. The State contended that
Santana was one of the two men and was Molly G’s
intended target.
After this shooting, Savoy and Wood visited Wood’s
cousin, Trayvon Douglas, who lived in the same neighborhood as Wood. According to Douglas’s testimony,
he and Wood began to argue. Wood and Savoy left to
avoid escalating the dispute. Soon thereafter, Douglas
went back to Rooks Head Place to meet up with Wood,
when he was approached by a stranger who asked him
where Molly G was. According to Douglas, the man
was about 6’2” tall and wore a black hoodie/jacket and
blue pants. Douglas told the man that he did not know
where Molly G was.
B. Wood’s Shooting
After the Molly G incident and after visiting with
Douglas, Savoy and Wood visited Wood’s mother, Gail
Fenwick, at a relative’s home on Rooks Head Place.
While everyone was talking on the front porch,
Fenwick saw someone pacing nearby, wearing what
she described as a bluish or black jacket with fur
around the hood. The hood was up and covered the
person’s face. Fenwick testified that this man, who
the State contended was Santana, took several steps
and then a second individual “pop[ped] up beside him,”
wearing a grey jacket and hat. Fenwick testified that

6a
the man in the grey jacket was “a little bit taller” than
her height of 5’6,” and the one in the dark jacket was
“shorter than the other one.” Wood signaled “what’s
up” to the men. The men both pulled out guns; the man
wearing the jacket with a fur-lined hood had a black
gun and the taller man had a silver gun. Fenwick told
Wood to run and she ran into the house. She heard
gunshots. She went back outside, and she saw her son,
Wood, lying on the porch of a nearby home. Wood had
been shot in the torso and died.
Edith Johnson, Santana’s neighbor, who lived at
2641 Rooks Head Place, testified that while talking
with her daughter outside of her home, she saw three
men heading towards Wakefield Circle, heard three
gunshots, and went inside. The State theorized that
the three men were Molly G, Wood, and Savoy. When
Johnson came back outside, she saw two other young
men, one of whom she identified as Santana, walking
from the direction of the gunshots and laughing. When
Ms. Johnson asked what happened, one of the men
said that they were “just around there showing off.”
Within an hour after that encounter, Ms. Johnson
again heard gunshots and called 911. The State
claimed that the second round of gunfire was the
shooting in which Wood was killed.
Following Wood’s shooting, Lloyd Turner, a neighbor on an adjacent street, Upbrook Court, told police
that earlier in the afternoon, he saw three men
running down the street who “looked like they were
shooting at somebody.” Turner described the shooters
as African American men and wearing dark hoods. As
it turned out, Turner had two security cameras outside
of his house which captured some portion of the first
shooting involving Molly G. Based on the time stamp
on Turner’s security video, the State argued that the

7a
first incident occurred around 1:07 p.m. and that the
word “Molly” was audible in the footage, thus confirming that on the day of the shooting, Molly G. was on or
near Wakefield Circle.
Another neighbor, Lawrence Dotson, heard an argument and heard Fenwick scream. Dotson saw Wood
and another man right behind him wearing all black
with his face concealed by a hood and carrying a black
gun. Dotson said another man was right behind the
first shooter but turned and left.
C. Police Investigation
Police and forensics experts arrived at the scene
around 2:05 p.m. Sergeant Clarence Black of the
Charles County Sheriff’s Office saw Santana walking
on Wakefield Circle and stopped him because he
matched the description of the shooter broadcast by
police. Although it was the middle of January, and
“cold and windy,” Black testified at trial that Santana
was wearing a shirt and pants, but no coat. Having at
that moment no reason to detain Santana, Sergeant
Black let him go.
From the investigation, the police recovered video
surveillance footage from two homes in the vicinity,
one of which was the video footage given to police by
Dotson. The second video, from nearby Oakley Drive,
showed a man pacing. Minutes later, it showed a gold
car, which a neighbor saw leaving the area after
hearing gunshots. According to the State, the man
pacing was Santana. The video also showed another
man, who the State argued was Santana’s associate,
Antonio Owens, walking from Wakefield Circle and
going to the same gold car.
A few days after Wood’s murder, police received an
anonymous tip about Santana’s involvement. Although

8a
detectives went to Santana’s home on Rooks Head
Place several times over the next few days, they never
found him there. The case then went cold for the
following two months.
D. Brawner’s Testimony
Rashaad Brawner was arrested on March 28, 2016
in connection with an unrelated shooting on Gittings
Court in Waldorf. After his arrest for the Gittings
shooting and seven months after Wood’s murder,
Brawner implicated Santana in Wood’s death. Brawner
admitted to the full extent of his involvement in
Wood’s shooting after he was confronted with video
footage from a security camera on Oakley Drive that
showed Antonio Owens, getting into Brawner’s gold
Mercury Sable near the scene of Wood’s murder. Faced
with this evidence, Brawner entered into an agreement with the State in which he would plead guilty
to manslaughter in the Gittings shooting, in exchange
for a sentence of ten years’ incarceration, with all but
five years suspended. The agreement was contingent
upon Brawner testifying truthfully in “any case”
against Santana.
During an interview with police on August 5, 2016,
Brawner told police that he had driven Santana and
Owens around Waldorf but left shortly before Wood’s
shooting to get his car repaired. At trial, Brawner
admitted that much of that story was either false or
misleading and that he had lied to the police at that
time to minimize his role in Wood’s death. Despite
this, Brawner directly implicated Santana in Wood’s
murder.
Brawner explained that he was at Santana’s house
on the afternoon of the shooting. As Brawner was
leaving Santana’s house, he saw three men, including

9a
Molly G and Wood, walk up to Rooks Head Court and
get into an argument with Santana in front of his
house. As the group continued the argument while
walking around the corner, Brawner heard gunshots
and said that Santana came running back and went
into his house. Santana came back out wearing a dark
coat and carrying a black handgun. Santana told
Brawner, “Molly G just shot at me.” According to
Brawner, he and Santana then drove around Waldorf
looking for Molly G. While they were driving, Santana
used Brawner’s phone to call Antonio Owens. After
Owens joined them in the car, the three men found
Molly G. According to Brawner, Owens got out of the
car to shoot Molly G, but his gun jammed. Owens got
back into the car and the trio continued driving.
Immediately thereafter, they saw Wood walking on
the street. Brawner testified that Santana and Owens
exited the car and followed Wood onto Rooks Head
Place. Brawner maintained that he stayed in the car,
and when he heard gunshots, he pulled off. But,
according to Brawner, he soon picked up Owens, who
was frantic and shaking. Owens said, “He’s dead, bro.”
Brawner drove off with Owens.
Around 2:20 p.m., Brawner said he got a call from
Santana asking Brawner to come pick him up.
According to Brawner, Santana called him from “a
random 240 number,” which police identified as the
cell phone number of a social acquaintance and former
neighbor of Brawner. Santana asked Brawner to
retrieve his jacket from a trash can behind Brawner’s
former house on Yarmouth Court, another street
located within Wakefield Circle. Brawner located the
trash can, retrieved Santana’s coat with a gun in the
pocket and returned it to Santana later that day.

10a
Brawner testified that approximately a week after the
shooting, Santana admitted that he had shot Wood.
E. The Trial
During the trial, the State called thirty-six witnesses over six days. Only Brawner testified that he
had personal knowledge that Santana shot Wood. The
State presented a gun that had been found when the
police executed a search warrant on a Southeast,
Washington D.C. apartment. An expert testified that
this gun fired some of the bullets found at the scene of
Wood’s shooting. There was no witness testimony that
Santana had ever handled this gun.
At the close of the State’s case, the defense moved
for a judgment of acquittal on the grounds that
Brawner’s testimony went uncorroborated. The trial
judge denied the motion and sent the case to the jury.
The jury convicted Santana of conspiracy to commit
first-degree murder and illegal possession of a firearm
by a disqualified person. The jury was unable to reach
a verdict on all the other counts, including first-degree
murder.
On December 12, 2019, the court sentenced Santana
to life in prison for conspiracy to commit first-degree
murder, and to 1,017 days for possession of a regulated
firearm by a disqualified person. Santana noted this
timely appeal.
DISCUSSION
I. The Court Did Not Err in Denying the Motion for
Acquittal Because the State Presented Sufficient
Corroborating Testimony to Meet the Accomplice
Corroboration Rule.
A. Parties’ Contentions

11a
Santana contends that the State did not satisfy
the accomplice corroboration rule. He argues that the
State relied solely on the testimony of Rashaad
Brawner to gain the convictions without presenting
any independent evidence to establish that he was
with Brawner or Antonio Owens on the day of the
Rooks Head shooting. Santana asserts that the only
pieces of evidence connecting him with the crime
were a popular type of winter coat and a neighbor’s
indirect reference to him in her testimony. Further,
Santana contends that on the day of the shooting,
Sergeant Black stopped him, and the evidence was
that he was not wearing a coat.
Additionally, Santana argues that the State’s
theory, that he retaliated against Wood because of
an earlier incident with Molly G, was not corroborated
by any of the trial witnesses. It was only Brawner,
Santana posits, who suggested that the two shootings
were connected. Santana contends that the State only
proved that two people wearing coats on January 6
shot Wood. Thus, Santana contends that, as a matter
of law, the trial court should have granted his motion
for acquittal and the case never should have gone to
the jury.
The State contends that independent and circumstantial evidence established that Santana was at the
scene of Wood’s homicide and that this evidence was
sufficient to sustain both convictions. First, the State
argues that circumstantial evidence from Santana’s
neighbors and video evidence placed him at the scene
of the crime. Second, the State contends that Sergeant
Black’s testimony demonstrated that Santana was in
the area before and after the crime. Third, the State
asserts that Brawner’s recovery of Santana’s parka
from a nearby trash can matched the description

12a
given by eyewitnesses at the scene of a similar coat
worn by the shooter. Therefore, the State contends
that the accomplice corroboration rule is satisfied
because independent and circumstantial evidence corroborated Brawner’s testimony and placed Santana
and Owens with him on the day of the shooting, near
the scene of the crime.
B. Analysis
1. Accomplice Corroboration Rule
The accomplice corroboration rule requires that
accomplice testimony be independently verified to
sustain a conviction. State v. Jones, 466 Md. 142, 145
(2019). A person accused of a crime cannot be convicted solely on the uncorroborated testimony of an
accomplice. Brown v. State, 281 Md. 241, 246 (1977).
The purpose of the accomplice corroboration rule is
to ensure that the trier of fact views the testimony of
an accomplice with “great suspicion and caution” as it
is the testimony of a person “admittedly contaminated
with guilt, who admits his participation in the crime
for which he particularly blames the defendant.” Id. at
244. An accomplice’s testimony is not required to cover
every detail and may even rely upon circumstantial
evidence. Ayers v. State, 335 Md. 602, 638 (1994). The
jury may “credit the accomplice’s testimony even with
respect to matters as to which no corroboration was
adduced.” Id.
In Wright v. State, the Court of Appeals elaborated
on the meaning of “sufficient corroboration.” 219 Md.
643, 644 (1959). The Court explained that corroborative evidence “need only support some of the material
points of the accomplice’s testimony.” Id. at 646-47.
“Corroborate means to strengthen not necessarily the
proof of any particular fact to which an accomplice has

13a
testified, but the probative, criminating force of his
testimony. ‘Material facts’ corroborative of the accomplice are facts of criminative character or tending
to connect accused with commission of the offense
charged.” Id. at 649 (citation omitted). Without corroborative evidence relating to substantial facts, a conviction cannot be sustained. Id. The Court explained
that corroborative evidence “must support the accomplice’s testimony as to some material facts tending to
show that the accused was either identified with the
perpetrators of the crime or had participated in the
crime itself.” Id. at 650. It noted, however, that sufficient corroboration is fact-dependent and depends on
inferences deducible from the facts and circumstances
of a particular case. Id. at 650.
In Wright, both accomplices testified that they had
been with the defendant on the night of an arson
moments before the fire started to visibly burn. Id. at
651. The accomplices testified that they drove with the
defendant to the ice-skating rink and that the
defendant removed a can of oil from the vehicle and
carried it towards the rink. Id. at 645. They also
testified that the defendant took a tire iron with him.
Id. at 646. The non-accomplice testimony included
the discovery of the tire iron in the back seat of the
defendant’s car and a can of oil found in his backyard.
Id. at 646. The State acknowledged that the evidence
was “not as strong as might be desired.” Id. at
646. Nonetheless, the Court held that sufficient
corroborative evidence existed that showed the
defendant with the accomplices on the night of the
crime in the vicinity of the crime. Id. at 651. The
accomplices testified to material facts that connected
the defendant “with commission of the offense charged.”
Id. at 650.

14a
In State v. Jones, the Court of Appeals affirmed this
Court’s conclusion that the accomplice corroboration
rule was not satisfied. 466 Md. 142 (2019). There, the
trial court denied a defense motion for a judgment of
acquittal because it found that a group photograph
taken on the accomplice’s cell phone at a party, a
few hours before the shooting, was sufficient corroboration of the accomplice’s testimony. Id. at 151. While
the State argued the photograph met the required
independent corroboration, the Court of Appeals held
that independent corroboration does not exist if it
relies on the testimony of an accomplice. Id. at 152; see
also Turner v. State, 294 Md. 640, 647 (1982) (noting
that the accomplice corroboration rule would be
“eviscerated . . . if an accomplice was allowed to
corroborate himself”).
The role of the court is to determine whether “the
corroborative evidence was legally sufficient to warrant submission of the case to the jury.” Jones, 466 Md.
at 151 (citing Wright, 219 Md. at 652). The court’s role
is limited to ascertaining whether there is any independent evidence that tends “either (1) to identify the
accused with the perpetrators of the crime or (2) to
show [his] participation in the crime.” Ayers, 335 Md.
at 638. While the corroboration need only be slight, it
may not be “wholly speculative.” Jones, 466 Md. at 155
(citing Jones v. State, No. 1988, 2016 Term, slip op. at
11-13, 2018 WL 3770206 (Md. Ct. Spec. App. Aug. 8,
2018)). The reviewing court’s focus is on “whether that
evidence, once admitted, is sufficiently corroborated to
“sustain a conviction.” Id. at 152.1
1

In 2019, the Court of Appeals in State v. Jones abrogated the
accomplice corroboration rule and held that the jury is entitled to
weigh the sufficiency of the evidence without the need for independent corroboration provided the jury is instructed on the

15a
Brawner’s Testimony was Corroborated in
Satisfaction of the Accomplice Corroboration
Rule.
Santana argues that Brawner’s testimony went
uncorroborated at trial. He contends that the State’s
theory of the case merely rested on inconsistent witness statements and vague descriptions of Santana’s
alleged clothing on the day of the shooting. Santana
thus concludes the State failed to meet its evidentiary
burden that he was guilty of the crimes alleged beyond
a reasonable doubt.
We agree that the State relied heavily on Brawner’s
testimony and recognize that its case rested primarily
on this testimony However, as we see it, the State
introduced sufficient independent evidence to establish Santana’s direct involvement in the crime or that
he was with the perpetrators of the crime on the day
of the shooting. See also Wright, 219 Md. at 646
(finding sufficient corroboration for the accomplice
corroboration rule even where the State had
acknowledged “that the corroborative evidence was
not as strong as might be desired”).

possible unreliability of the accomplice testimony. Id. at 145. The
Court explained that a blanket rule requiring corroboration of an
accomplice’s testimony “intrudes too far into the jury’s constitutional role as factfinder and unnecessarily and arbitrarily
deprives the jury of the opportunity to assess and decide the
credibility of potentially highly relevant evidence.” Id. at 162. The
Court of Appeals noted that its holding applied prospectively to
all trials “commencing with the date of our mandate in the
instant case.” Id. at 169. Therefore, the new rule outlined in Jones
is inapplicable here because the trial occurred prior to the Jones
decision.

16a
a. Winter Parka
The State posited that a man wearing a dark-colored
winter parka with fur trim was responsible for Wood’s
death, or, in the alternative, was a conspirator in the
shooting that led to Wood’s death. At trial, the State
presented evidence that Santana was wearing a darkcolored winter parka with fur trim near the crime
scene around the time of the shooting. The State’s
main witness, Brawner, testified that Santana asked
him to retrieve his parka from a trash can behind
Brawner’s former residence after the shooting. In
response, Santana argued, as he does here, that the
State’s evidence as it relates to the parka is insufficient to prove that Santana was wearing the parka
during the shooting. Primarily, Santana contends
that Brawner’s testimony about retrieving the jacket
cannot be corroborated by the other evidence. He
argues that this is particularly true considering that
Sergeant Black testified that around the time of the
shooting, he saw Santana not wearing a coat.
Evidence of possession of an object before and after
the event with which the object is associated “creates,
in turn, a reasonable inference of possession of the
object during the event.” Govostis v. State, 74 Md.
App. 457 (1988). In Govostis, this Court held that possession of the murder weapon at the time of the arrest
did not corroborate the accomplice’s testimony or connect the defendant with the crime because the gun
may have been given to him after the murder. This
Court elaborated that the fact the defendant was in
the company of the accomplice eleven days after the
crime and arrested with the murder weapon did not
corroborate the purported accomplice or, in itself,
connect the defendant with the crime. Id. at 469.
However, we highlighted that “the corroborating tes-

17a
timony of the [victims] and the arresting officers
tend[ed] to establish that [the defendant] was in possession of the murder weapon two days before as well
as eleven days after the murder.” Id. at 466.
In Govostis, the mere possession of the murder
weapon was not enough to corroborate the accomplice’s testimony. Here, one might argue that the
same could be true of the parka, which the police found
after they executed a search warrant at Santana’s
residence, because it is possible that Santana could
have acquired the parka after the shooting. See Id. at
469. But, like as in Govostis, where the other corroborating evidence linked the defendant to the crime
aside from the recovered gun, here, the State presented independent and circumstantial evidence that
tended to establish that Santana was in possession
of the parka before, during, and after the crime. Id. at
466. The parka matched the description given by
Brawner in his testimony and matched the description of the individual Gail Fenwick saw shooting her
son, Wood. Fenwick’s testimony that she saw two
men, one wearing a black fur-trimmed parka with a
black gun and one with a silver gun, created a reasonable inference that the two men were Santana and
Owens. Fenwick’s testimony supported a “material
fact” of Brawner’s testimony, which was that Santana
was wearing a parka on the day of the shooting and
carried a black gun and was in the company of Owens,
who carried a silver gun. See id.; Wright, 219 Md. at
649.
Even though Sergeant Black stopped Santana
minutes after the shooting while not wearing a jacket,
this does not negate the likelihood that Santana
discarded the jacket immediately after the shooting
and then, later, retrieved it from Brawner. Even so, “a

18a
reasonable inference of possession” existed and thus,
the jury was entitled to give its own weight to and
ascertain the importance of the parka in connection
with Brawner’s testimony. Govostis, 74 Md. App. at
457; Dawson v. State, 329 Md. 275, 281 (1993) (explaining that “it is the jury’s task, not the court’s to
measure the weight of evidence and to judge the
credibility of witnesses”); McMillian v. State, 325 Md.
272, 290 (1992) (“[I]t is the exclusive function of the
jury to draw reasonable inferences from proven facts.”).
The discovery of the parka combined with Fenwick’s
testimony, sufficiently corroborated Brawner’s accomplice testimony.
b. Eyewitness Testimony
Aside from Santana’s possession of the parka, the
State also presented eyewitness testimony that corroborated Brawner’s testimony that Santana was
associated with Owens in Wood’s slaying or showed
that Santana was a direct participant in the crime.
Legally sufficient corroborative evidence consists of
independent evidence that corroborates the accomplice’s testimony “that the accused was in the vicinity
of the crime at the time it was committed or that he
was in the company of the perpetrator either shortly
before or shortly after the crime.” Wise v. State, 8 Md.
App. 61, 63-64 (1969). First, Fenwick’s testimony
corroborates Brawner’s testimony that Santana and
Owens were together at the time of the shooting.
Wright, 219 Md. at 650. Fenwick testified that she saw
two men, one of whom was wearing a dark jacket with
a fur-lined hood and carrying a black gun and the
other man was wearing a grey jacket with a hat and
carrying a gray or silver gun. Fenwick’s testimony as
to the description of the shooters is independent evidence that relates to a “material fact” of the accom-

19a
plice’s testimony. Brawner testified that Santana and
Owens were together at the time of the shooting in
the vicinity of the crime. Wright, 219 Md. at 650
(explaining that corroborative evidence “must support
the accomplice’s testimony as to some material facts
tending to show that the accused was either identified
with the perpetrators of the crime or had participated
in the crime itself”).
Second, video footage from a home on Oakley Drive
showed a gold Mercury Sable, identified as Brawner’s
vehicle, driving onto Wakefield Circle around the time
of the shooting. The video footage also showed an
individual pacing back and forth, who the State
identified as Santana, and Fenwick testified she saw
an individual pacing back and forth before the shooting. The video footage and Fenwick’s testimony go to
a “material fact” of Brawner’s testimony by placing
Santana in the vicinity of the crime. Additionally,
according to the State, the video showed Santana’s
associate, Owens, making his way to Brawner’s
vehicle after the shooting. Brawner testified that after
the shooting Owens got into Brawner’s vehicle and
said, “He’s dead, bro.” The circumstantial identifications of Santana and Owens near the scene and at the
time of the crime sufficiently corroborated Brawner’s
testimony and related to substantial facts that tended
to connect Santana with the crime. Wright, 219 Md. at
649; see also Jeandell v. State, 34 Md. App. 108, 112
(1976) (stating that non-accomplice testimony must
identify the defendant with the accomplices at or near
the time of the crime).
Third, Edith Johnson’s testimony that she saw
Santana with an individual she did not recognize
about an hour before the shooting tended to place
Santana in the company of Brawner within the time

20a
frame of the shooting. Johnson’s identification tends
to corroborate Brawner’s testimony that earlier in the
day he and Santana got into a scuffle with Molly G.
See Wise, 8 Md. App. at 63-64 (“Independent evidence
corroborating the accomplice’s testimony that the
accused was in the vicinity of the crime at the time it
was committed or that he was in the company of the
perpetrator either shortly before or shortly after the
crime constitutes legally sufficient corroborative evidence.”). Johnson’s testimony corroborates evidence
going to a “substantial fact” of Brawner’s testimony,
which is that Brawner and Santana were together
within an hour of the shooting. Wright, 219 Md. at 649.
Relying on circumstantial evidence and the facts
deducible therefrom, the State introduced sufficient
evidence that “with some degree of cogency, either
identifjied] [Santana] as a perpetrator of the crime or
showed that [Santana] participated.” McCray v. State,
122 Md. App. 588 (1998). Therefore, we conclude that
the court did not err in denying the motion for judgment of acquittal. The State provided sufficient nonaccomplice testimony and circumstantial evidence to
corroborate Brawner’s testimony that Santana either
committed the crime or participated with the others in
Wood’s murder.
II. Santana’s Conviction Should Not Be Reversed
Because He Did Not Preserve an Objection to the
Alleged False Testimony at Trial, and Even If He
Had Raised an Objection, the State Did Not
Procure False or Misleading Testimony from Any
Witness.
A. Parties’ Contentions
Santana contends that the State knowingly relied
on false testimony in violation of the Fourteenth

21a
Amendment. He maintains that Rashaad Brawner
and Lead Detective John Elliot both gave false testimony that the State knew or should have known was
false, the State failed to correct the witnesses, and this
failure was material to the outcome of the trial.
First, Santana argues that the State failed to correct Brawner’s mistaken understanding of the plea
agreement he entered into with the State in return
for his testimony at trial and the failure to correct
Brawner allowed the jury to take an “unfounded view
of Brawner’s credibility—the foundation of the State’s
case against Santana.”
Second, Santana argues that the State’s introduction of Brawner’s phone records clearly contradicted
Brawner’s testimony as it related to the three phone
calls that Brawner received from Santana following
the shooting, and thus, the State had an obligation
to investigate that contradiction and to correct it.
Santana contends that the testimony surrounding the
phone calls is material because of their importance in
establishing the timeline of the afternoon’s events and
implicating Santana.
Third, Santana contends that the State failed to
correct errors in Detective Elliot’s testimony that
related to whether the Charles County Courthouse
had surveillance cameras in the parking lot. Santana
argues that Detective Elliot was aware that one
potential suspect, Anthony Dotson Jr. had been seen
in the Charles County Courthouse parking lot with an
associate threatening someone that they would “end
up like your friend,” referring to Lydell Wood. During
cross-examination, defense counsel asked the detective if he ever reviewed video footage of the incident.
During a bench conference, the trial judge informed
counsel there was no video surveillance in the parking

22a
lot. Following the bench conference, the defense
asked if the detective reviewed any video footage. The
detective claimed that he did review video footage but
did not include it in his report. Santana argues that
the presiding judge’s statement as to the lack of video
surveillance in the parking lot created a duty in the
prosecutor to correct the testimony. Santana contends
this testimony is material because it suggests that
Detective Elliot followed up on information about an
alternative suspect, which could have affected the
jury’s judgment as to the robustness of the investigation.
The State contends that Santana’s arguments as to
the false testimony are not reviewable on appeal
because Santana did not raise these issues at trial,
thus his objection is not preserved. The State also
contends that even on the merits, Santana cannot
show that any of the testimony was false or that the
evidence was material and favorable to Santana.
As for the plea agreement, the State contends that
it was not false or misleading because the State
presented the terms of the agreement and Santana
extensively questioned Brawner about the terms of the
agreement. Regarding the phone calls, the State
contends that the phone records were extensively
covered on cross-examination with the witness and
Santana did not raise these issues at trial. Finally, the
State contends that it was not “duty bound” to correct Detective Elliot’s misstatement, especially concerning tangential matters, such as with the cameras
in the parking lot. The State argues that correcting
this misstatement would not have been favorable to
Santana because the testimony indicated that someone else had been investigated and that there was
video evidence of the fight, which supports Santana’s

23a
argument that the officers did not adequately investigate the case.
B. Analysis
1. Rule 8-131
Maryland Rule 8-131 governs the scope of review
for the Court. The Rule provides that the Court may
only decide issues that appear plainly on the record or
were raised in or decided by the trial court, unless on
appeal, the issue must be decided to avoid the expense
of another appeal or to properly guide the trial court.
Specifically, Rule 8-131 states:
(a) Generally. The issues of jurisdiction of
the trial court over the subject matter
and, unless waived under Rule 2-322,
over a person may be raised in and
decided by the appellate court whether or
not raised in and decided by the trial
court. Ordinarily, the appellate court will
not decide any other issue unless it
plainly appears by the record to have
been raised in or decided by the trial
court, but the Court may decide such an
issue if necessary or desirable to guide
the trial court or to avoid the expense and
delay of another appeal.
The purpose of the Rule is to ensure a fair and orderly
administration of justice by “requiring counsel to
bring the position of their client to the attention of
the lower court at the trial so that the trial court can
pass upon, and possibly correct any errors in the proceeding.” Robinson v. State, 410 Md. 91, 103 (2009). As
Santana is contesting the trial court’s ruling, he must
have made a timely objection at trial otherwise he is
barred “from obtaining review of the claimed error as

24a
a matter of right.” Id. at 104; see also Basoff v. State,
208 Md. 643, 650 (1956) (explaining that where the
party has the option to object at trial, the failure to
object “while it is still within the power of the trial
court to correct the error is regarded as a waiver” thus
preventing review on appeal).
The Rule necessarily requires that “‘the ‘issue’ must
‘plainly appear’ by the record to have been ‘raised in’
the trial court or ‘decided by’ the trial court.” Ray v.
State, 435 Md. 1, 20 (2013). In Ray, the Court of
Appeals explained that the petitioner did not “raise”
the issue either before or during the suppression hearing and that the petitioner did not attempt to use
cross-examination of the State’s witnesses to advance
his argument that the State lacked probable cause. Id.
The Court explained that at no point did the defense
contest whether the police had probable cause to
arrest the defendant. Id. at 21. The Court noted that
to address an issue on appeal that was not litigated in
the trial court “depriv[ed] the State of any opportunity
to introduce additional evidence or advance a new
theory in opposition” to the defendant’s argument. Id.
at 23. The Court explained that appellate courts
should rarely exercise discretion to hear on appeal
issues that were not raised before the trial court. Id.
Here, when Santana moved for a judgment of acquittal, he exclusively focused on whether the State met
its burden to satisfy the accomplice corroboration
rule. While the record plainly indicates the trial
court’s decision as to the accomplice corroboration
rule, the issue of the purportedly false testimony of
Detective Elliot and Rashaad Brawner does not
“plainly appear . . . to have been raised in the trial
court or decided by the trial court.” See Ray, 435 Md.
at 20. As in Ray where the petitioner failed to raise

25a
the issue during the motions hearings or crossexamination, here, Santana did not advance an argument about the falsity of either witness’ testimony
during trial and did not question whether either
witness’ testimony was false. Id. at 21. Without raising
these issues at trial, Santana necessarily deprived the
State of the opportunity to respond to these arguments or to present countering evidence. Consequently, under Rule 8-131, we conclude that Santana’s
assignments of error related to Brawner’s plea agreement, the testimony about Brawner’s phone records,
and Detective Elliot’s testimony, are not preserved
because they were neither raised in nor decided by
the trial court.
2. If Reviewed, Reversal is not Required
Because the State Did Not Present False
Testimony
Even if we determined that Santana’s alleged errors
were preserved for review, after examining the merits
of each of his arguments, we nonetheless would
conclude that reversal is not required because in each
instance the State did not present false testimony.
Reversal of a conviction on the grounds of false
testimony requires a defendant to meet two conditions. First, the defendant must demonstrate that the
State knowingly presented false evidence or testimony
at trial. United States v. Agurs, 427 U.S. 97, 103
(1976); Lyde v. Warden, 1 Md. App. 423, 427 (1967)
(explaining that the applicant bears the burden of
proving that the State “knowingly used perjured testimony” to secure a conviction). The government is not
required to have elicited the testimony as it is sufficient for the State to allow the evidence to go uncorrected when it comes up. United States v. Griley, 814
F.2d 967 (4th Cir. 1987). Not only must the State

26a
refrain from producing false testimony, but it must
also “correct statements, known to be false, even if
unsolicited.” Hall v. Warden of Md. House of Correction, 222 Md. 590, 593 (1960). Second, the defendant
must demonstrate that the falsehood was material
and that a reasonable likelihood exists that the false
evidence or testimony could have affected the jury’s
verdict. Agurs, 427 U.S. at 103.
The State’s “knowing use of material, false evidence”
in a criminal trial violates due process and affects
the “constitutional concept of fairness.” See Giglio v.
United States, 405 U.S. 150, 153 (1972); Hall, 222 Md.
at 593; see also Mooney v. Holohan, 294 U.S. 103, 112
(1935) (noting that where the State secures a conviction through testimony known to be perjured, the
conviction “is . . . inconsistent with the rudimentary
demands of justice”). The State’s obligation to not
present false testimony applies as equally to a witness’s credibility as it does to a defendant’s guilt. See
Napue v. People of State of Illinois, 360 U.S. 264, 269
(1959).
a. Plea Agreement
In Napue, the United States Supreme Court held
that the government’s use of false testimony to secure
the petitioner’s conviction may have affected the
outcome of the trial. 360 U.S. at 272. In Napue, the
petitioner argued that a key witness for the government gave false testimony and that the government
knew the testimony was false. Id. at 267. The government’s witness falsely testified that he received no
promise of consideration in exchange for his testimony and the government failed to correct the
testimony, despite promising consideration. Id. at 265.
The Court explained that if the jury had been aware
of the promise, then it may have concluded that the

27a
witness “had fabricated testimony in order to curry
the favor of the very representative of the State who
was prosecuting the case in which [the witness] was
testifying, for [the witness] might have believed that
such a representative was in a position to implement
(as he ultimately attempted to do) any promise of
consideration.” Id. at 270. Additionally, the government, itself, on re-direct even sought to establish to
the jury “that no official source had promised [the
witness] consideration.” Id. at 270; see also Giglio, 405
U.S. at 151 (holding that given the importance of the
witness’s credibility to the issues, “evidence of any
understanding or agreement as to a future prosecution would be relevant to his credibility and the jury
was entitled to know of it”); Jones v. State, 8 Md. App.
405, 413 (1970) (citing State v. Taylor, 231 A.2d 212,
221 (1967) (noting that where a co-defendant’s plea
agreement requires truthful testimony about the other
defendant in exchange for leniency, “such promise or
understanding should be fully, fairly and honestly
disclosed”)).
Santana contends Brawner’s understanding as the
extent of his plea agreement equates to the false
testimony that existed in Napue. We disagree. Unlike
in Napue where the plea agreement was not disclosed, here, the State disclosed the plea agreement
and entered a written copy of it into evidence. On
direct examination, the State questioned Brawner
about the plea agreement. Therefore, the jury was
aware of the terms of the plea agreement, unlike in
Napue where the jury was unaware of the terms of any
potential plea agreement. See Napue, 360 U.S. at 269.
In this case, the jury could determine “the truthfulness
and reliability” of Brawner’s testimony because the
jury had the plea agreement, it was disclosed to
Santana, and Santana thoroughly cross-examined

28a
Brawner on the terms of the agreement. Id. at 269
(noting that the jury’s estimation of a witness’s reliability “may well be determinative of guilt or innocence and it is upon such subtle factors as the possible
interest of the witness in testifying falsely that a
defendant’s life or liberty may depend”).
Based on a review of the transcript of Brawner’s
testimony, we think that Brawner misunderstood the
scope of the plea agreement. He thought the agreement granted him immunity from prosecution in this
case, when, in fact, it did not. This misunderstanding
was not a product of the State eliciting false testimony.
While Brawner testified that a former State’s Attorney
had told him he would not be prosecuted for Wood’s
murder, the prosecutor in this case stated at a
bench conference during the trial that the State had
disclosed to Santana everything related to the plea
agreement. The prosecutor explained that the deal
was not what Brawner thought it was, but the terms
of the agreement were as they had been disclosed to
Santana. We conclude that the State fully disclosed
the terms of the plea agreement to both Santana and
the jury. Giglio, 405 U.S. at 155 (explaining that
“evidence of any understanding or agreement as to a
future prosecution would be relevant to his credibility
and the jury was entitled to know of it”); Wilson v.
State, 363 Md. 333, 352 (2001) (noting that had the
jury known about the extent of leniency the witnesses
received, there was “a substantial possibility that the
outcome would have been different”). The jury had the
opportunity to assess Brawner’s credibility as the
details of the plea agreement were revealed on direct
and cross-examination.
Santana’s cross-examination of Brawner as it pertained to the plea agreement spread over 100 pages

29a
of the trial transcript. The State’s disclosure of the
plea agreement enabled Santana to question Brawner
as to his understanding of the plea agreement, which
could demonstrate his bias and credibility for the
jury. See Ware v. State, 348 Md. 19, 50 (1997) (explaining that evidence of plea agreements or deals with
witnesses “provide[] powerful impeachment evidence
against a witness and enable[] a defendant to attack
the motive or bias of a witness” who may have an
incentive to falsify testimony); United States v. Payne,
63 F.3d 1200, 1210-11 (2nd Cir. 1995) (concluding that
“under the rigors of the vigorous cross-examination
by defense counsel, any bias or prejudice underlying
her testimony was surely demonstrated to the jury,
thus the jury was able to weigh the truthfulness
adequately”); DeLoach v. State, 308 Ga. 283, 294
(2020) (noting that the witness “amply demonstrated
his questionable credibility at trial,” thus there was
“no reasonable likelihood that [the witness’] false testimony about his plea agreement could have affected
the jury’s assessment” of the witness’s credibility).
We hold that Santana’s argument on the merits is
not compelling. The State did not knowingly present
false testimony about Brawner’s plea agreement. See
Giglio, 405 U.S. at 153. Instead, the State fully complied with the demands of justice by “fully, fairly and
honestly disclos[ing]” the extent of the plea agreement
to both Santana and the jury. Jones, 8 Md. App. at 413.
b. Phone Records
Santana contends the State knowingly presented
false testimony when it introduced Brawner’s cell
phone records. Those records contradicted Brawner’s
testimony of the events that happened after Wood’s
murder—a central element of the State’s case.
Santana claims that the State’s introduction of these

30a
records, which Brawner’s testimony contradicted,
amounted to the introduction of false testimony. We
disagree.
First, Santana has not shown that the State knew
or participated in giving false testimony. Conyers v.
State, 367 Md. 571, 597–98 (2002). A prosecutor’s
possession of evidence that is contradictory to the
witness’s testimony is not necessarily the knowing
use of false testimony. See United States v. Payne, 940
F.2d 286, 292 (8th Cir. 1991) (explaining that inconsistencies may come out in trial testimony and that
the defendant had access to the information which
revealed contradictions with what the witness told
investigators). “Mere inconsistences in testimony by
government witnesses do not establish the government’s knowing use of false testimony.” Griley v.
United States, 814 F.2d 967, 971 (4th Cir. 1987). Thus,
even though the State’s evidence was contradictory
that “inconsistent testimony [was] for the jury to
weigh; it does not establish [the witness’s] perjury.” Id.
In Griley, a government witness testified that he
had not previously firebombed phone booths. 814 F.2d
at 971. The defendant argued that the government
witness’s statement amounted to perjury because a
second government witness had testified that he had
helped the first witness firebomb phone booths. Id.
The trial court declined to find that the first witness’s
testimony was perjury, instead noting that these were
merely inconsistencies in the government’s evidence.
Id. Similarly, here, Brawner and Officer Austin gave
inconsistent testimony. Brawner’s testimony about
where he claimed to be at a certain time may have
been temporally impossible, but Brawner’s testimony
and his contradictory cell phone records merely created
“inconsistent testimony for the jury to weigh.” Id.

31a
Second, even if the evidence was in fact false, it was
still not material or favorable to Santana. Agurs, 427
U.S. at 103. The inconsistencies are not material
because the jury was presented with all the relevant
testimony as Santana’s trial counsel specifically asked
Officer Austin whether Brawner had to be lying for the
timeline to make sense.
[DEFENSE COUNSEL]: Now you, you
also know from talking to Mr. Brawner that
this call is important because he claims that
after he received this call, he then called
Andarius Conner to tell him to go pick up
Miguel Santana, right?
[OFFICER AUSTIN]: Correct.
[DEFENSE
COUNSEL]: So
it’s
an
important part of the chronology, because
basically Mr. Brawner receives this call from
this 240 number and then Mr. Brawner calls
Mr. Conner right?
[OFFICER AUSTIN]: Correct.
[DEFENSE COUNSEL]: And I apologize if
I’m sort of stating the obvious here, but I just
want to make sure it’s clear. Mr. Brawner
calls, told you he called Mr. Conner about
picking up Mr. Santana so this call, this 2:18
call from this random 240 number, it has to
be Mr. Santana for Mr. Brawner’s story to
make sense right, because then Mr. Brawner
calls Mr. Conner and says please go pick up
Miguel, right?
[OFFICER AUSTIN]: Correct.
The jury had ample opportunity to assess Brawner’s
credibility by examining his testimony and the con-

32a
flicting phone records. Indeed, Santana’s trial counsel
spent over 150 transcript pages cross-examining
Officer Austin and Brawner as to the chronology of
events presented in the phone records. Thus, the jury
had an opportunity to explore discrepancies in the
evidence. See Wilson, 363 Md. at 352 (explaining that
the “jury’s assessment of the credibility” of the witnesses “was most likely a determining factor in the
guilty verdict”). Even if Brawner’s testimony was
false, that testimony regarding the phone records was
not material.
We hold that the State did not introduce false testimony by producing Brawner’s cell phone records.
Even if one could say that Brawner’s testimony about
what he did after the shooting was false, as the phone
records contradicted that testimony, we think the
contradiction was not material. Santana had Brawner’s
phone records, the records were produced for the jury,
and Santana’s trial counsel spent considerable time
cross-examining Brawner and the police officer
who introduced the records about the inconsistencies
between the phone records and Brawner’s testimony.
The jury was charged with resolving contradictions in
the evidence and did so in this case.
c. Detective Elliot’s Testimony
Santana contends that the State knowingly introduced false testimony when Detective Elliot testified
that he reviewed video surveillance of a confrontation
between Anthony Dotson and another individual.
According to a comment the trial judge made during a
bench conference, video footage of such an event probably did not exist, because, according to the judge’s
recollection, there were no video cameras surveilling
the courthouse’s parking lot. Santana argues that

33a
because of the judge’s statement, the State knew that
Detective Elliot’s testimony was false. We disagree.
In United States v. Basham, the defendant contended that the prosecutor introduced testimony that
they knew or should have known was false. 789 F.3d
358, 376 (4th Cir. 2015). The court explained that
the “prosecution ‘did not vouch for the accuracy of
Basham’s statement,’ and that ‘the government did
not advance an argument to the court or the jury
that Basham was the one who used the strap to
strangle [the victim].’” Id. at 377. Further, while the
prosecution presented the officer’s testimony to the
grand jury, the prosecution did not adopt that testimony as the theory of its case. Id.
In United States v. Abebayo, the court found that
the defendant failed to present evidence that the perjured testimony was part of the government’s case. 985
F.2d 1333, 1342 (7th Cir. 1993). The court elaborated
that the defendant’s attorney elicited the perjured
testimony from the witness. Id. The government’s aim
on direct was to ensure the topics were expressly
limited to specific topics “to ensure that [the witness]
would say nothing that the government considered
untruthful.” Id. However, the defendant’s attorney,
“elicited from [the witness] his perjurious assertion
that he was unaware of the contents of the heroin
packets.” Id. Therefore, the court concluded that the
perjured testimony was not only not part of the
government’s case but also the government had no
way of knowing that the witness would present
perjured testimony. Id.
Just as in Basham and Abebayo, where the government did not present perjury or advance an argument
that supported a witness’s perjurious assertion, the
State neither presented nor advanced any such argu-

34a
ment in Santana’s case. During his direct examination, the State questioned Detective Elliot about an
incident with Anthony Dotson Jr. which had occurred
at the courthouse. The State did not ask any questions about whether the incident had been recorded
or if the detective had reviewed a recording of the
incident. In fact, the issue of a video recording only
came up on cross-examination. In this case, we cannot say that the State elicited the witness’s testimony,
whether false or not. See Abebayo, 985 F.2d at 1342
(finding that the defense elicited the claimed “perjurious assertion,” which had not been part of the Government’s case). Further, after Santana’s trial counsel
asked a question about whether Detective Elliot had
seen video footage of the incident, at a bench conference the judge informed counsel that there were no
surveillance cameras in the parking lot, and that the
Detective may or may not know that. After resuming
cross-examination, Santana’s counsel continued to
ask the detective whether any video recordings of the
incident existed and if so, whether their existence
was noted in the detective’s report regarding the
incident. Our review of the record reveals that
Santana’s trial counsel created the controversy they
now claim that the State should have remedied. Cf.
Basham, 789 F.3d at 376 (explaining that the government did not advance an argument to the court or the
jury that Basham was the one who used the strap to
strangle [the victim]”).
Here, the State did not introduce or fail to correct
false testimony. The testimony at issue was introduced by Santana’s counsel. Even if addressed, we
find no merit in Santana’s contention that the State
allegedly procured false testimony.

35a
III. The Prosecutor’s Comment During Rebuttal
Closing Was Not Prejudicial, and Even if It Was,
It Was Harmless Beyond a Reasonable Doubt.
A. Parties’ Contentions
Santana contends that his conviction should be
reversed because the State asserted facts about a
call sheet during the rebuttal portion of their closing
argument, which Santana claimed were not in evidence. Santana contends that his trial counsel’s
objection was neither sustained nor overruled, which
prejudiced Santana. Santana contends reversal is
warranted because the State’s case against him is
thin, the prosecutor’s remark was materially misleading, and the trial court undertook no measures to cure.
The State contends that the prosecutor’s remark was
proper and that any error was harmless because the
same type of statement had been made in the State’s
initial closing argument and in Santana’s counsel’s
closing argument.
1. Preservation
As we have previously discussed, under Rule 8131(a), a defendant must object during closing arguments to preserve an issue for appeal. See Shelton v.
State, 207 Md. App. 363, 385 (2012); Icogren v. State,
103 Md. App. 407, 442 (1995) (declining to find an
issue preserved for appeal when the defendant failed
to make an immediate or belated objection at any
point during the prosecution’s closing argument). An
issue is preserved for appeal if the party objects to
that portion of the prosecutor’s closing argument.
Stevenson v. State, 94 Md. App. 715, 730 (1993).
While the State argues that Santana failed to preserve the issue of the propriety of the prosecutor’s
comment during closing, we do not agree. Santana’s

36a
trial counsel objected as soon as the prosecutor made
the comment. Based on Santana’s prompt objection to
the comment, we find that the issue is preserved. See
Shelton, 207 Md. App. at 385.
2. Merits
Given that the issue was preserved for appeal, we
examine what the prosecutor said on rebuttal that
Santana found objectionable. In the State’s initial
closing argument, the prosecutor recounted the events
that occurred after the shooting. The prosecutor
observed that Sergeant Black had stopped Santana
around 2:14 p.m. “give or take a few minutes given the
chaotic situation with the dispatcher and all that’s
going on.” The prosecutor also highlighted that this
“isn’t going to be an exact time, right” because there
was so much going on at the time. Further, the
prosecutor said: “the fact [that] you have a dispatcher
typing in what’s happening after the information is
coming to them, which it would be after the time it
actually happened.” In his closing argument, defense
counsel asserted that “these dates, these times come
from CAD, the computer-aided dispatch report from
the Charles County emergency response system.”
In response to this statement in the State’s rebuttal
closing, the prosecutor asserted that “[t]here’s no testimony, no evidence as to how that is created. It ain’t
a verbatim as you talk it comes in; it’s entered in,
entered in after it happens.” Defense counsel objected
and the trial judge called the parties to a bench conference. After hearing argument about the defense
objection to the State arguing facts not in evidence,
rather than rule on the objection, the judge simply
told the prosecutor to “move on.” We conclude that
the trial court had the discretion to rule on the objection but did not exercise it. That omission constitutes

37a
error. Thompson v. State, 167 Md. App. 513, 526 (2006)
(noting that if the court fails to exercise discretion
“when the court indeed has discretion to do so is an
abuse of discretion”).
We now consider whether the trial court’s error was
harmless. Improper comments made during closing
are subject to harmless error review. The prosecution
has the burden of establishing beyond a reasonable
doubt “that the error did not contribute to the verdict
— and is thus truly ‘harmless.’” Dorsey v. State, 276
Md. 638, 658 (1976). An error is harmless if “a reviewing court, upon its own independent review of the
record, is able to declare a belief, beyond a reasonable
doubt, that the error in no way influenced the verdict.”
Fuentes v. State, 454 Md. 296, 279 (2017) (citing
Simpson v. State, 442 Md. 446, 457 (2015)) (internal
citations and quotations omitted).
An appellate court reviews “the severity of the
remarks, the measures taken to cure any potential
prejudice, and the weight of the evidence against the
accused” to determine if a remark necessitates reversal. Lee v. State, 405 Md. 148, 165 (2008). On review,
we consider the statements “in the context of the
prejudice that each of the statements, and all of them,
created in the minds of the jurors.” Id. at 175. “Not
every improper remark, however, necessitates reversal.” Id. at 164. Reversal is only required if the prosecutor’s remarks “actually misled the jury or were
likely to have misled the jury or influenced the jury
to the prejudice of the accused.” Degren, 352 Md. at
431; Henry v. State, 324 Md. 204, 230 (1991) (stating
that reversal is not justified unless the “jury were
actually misled or were likely to have been misled or
influenced to the prejudice of the accused by the
remarks of the State’s Attorney”).

38a
Here, the State’s comment was not severe, even
though Santana claims it relates to a key aspect of
the State’s timeline of Wood’s murder. Contrary to
what Santana argues, the prosecution did not “introduc[e] specific misleading evidence” because similar
comments had already been made in both Santana’s
counsel’s closing and the prosecution’s initial closing
argument. See Wilhem v. State, 272 Md. 404, 427
(1974) (citing Donnelly v. DeChristoforo, 416 U.S. 637,
647 (1974)). Thus, the comment could not have misled
the jury as both parties essentially argued their point
as to why the call sheet time was either correct or
incorrect. See Henry, 324 Md. at 232 (finding that
when examining the comment “in its entire context”
the prosecution’s comment did not warrant reversal
because the comment was a direct response to the
defense’s closing argument); see also Shelton, 207 Md.
App. at 363 (explaining that reversal was not warranted because the defendant “had an opportunity to
address the facts omitted in the prosecutor’s closing
argument”).
While Santana contends that the trial judge’s
failure to rule on the objection or provide a curative
instruction prejudiced him, we disagree. In Degren,
the trial court did not provide a curative instruction
following the prosecutor’s comments but had instructed
the jury on the role of closing arguments and on the
role of the jury in evaluating the case prior to closing
arguments. 352 Md. at 433. Here, the trial court also
gave the jury their instructions prior to closing arguments, thus the jury was aware of the purpose of
closing arguments. The jury had been instructed that
closing arguments were not evidence. See Spain v.
State, 386 Md. 145, 160 (2005) (explaining that jury
instructions can be “ameliorative of any prejudice
result[ing] from the improper comments”); Henry, 324

39a
Md. at 232 (noting that “the judge properly instructed
the jury on the applicable law, including the State’s
burden of proof,” thus the prosecutor’s comments
“could not have misled or prejudicially influenced the
jury”).
While Santana contends that the weight of the
evidence mandates reversal, we do not agree. The
weight of the evidence is also considered in determining the prejudicial impact of a prosecutor’s comment.
Spain, 386 Md. at 161. In Spain, the Court of Appeals
concluded that while sufficient evidence existed of the
defendant’s guilt, it was not “truly overwhelming.” Id.
Here, as discussed, the State presented accomplice
testimony, eyewitness testimony, videotape evidence,
and other circumstantial evidence that pointed to
Santana’s guilt. Although the evidence was not overwhelming, the fact that the jury could not reach a
verdict on first-degree murder, use of a firearm in a
violent felony, wearing, carrying, and transporting of
a handgun on the person and wearing, carrying, and
transporting of a handgun on a public road, shows that
the prosecutor’s comment on rebuttal closing did not
“infect [Santana’s] trial with unfairness and was not
likely to have prejudiced him.” Hill, 355 Md. at 209.
Under these circumstances reversal is not required.
JUDGMENTS OF THE CIRCUIT
COURT FOR CHARLES COUNTY
AFFIRMED; COSTS TO BE PAID
BY APPELLANT.

40a
APPENDIX C
IN THE CIRCUIT COURT
FOR CHARLES COUNTY, MARYLAND
————
Case No. 08-K-17-000083
08-K-11-1212
Volume 3
————
STATE OF MARYLAND,
vs.
MIGUEL ANGEL SANTANA,
Defendant.
————
OFFICIAL TRANSCRIPT OF PROCEEDINGS
JURY TRIAL
Wednesday, March 27, 2019
————
BEFORE: HONORABLE AMY J. BRAGUNIER, Judge
APPEARANCES:
ON BEHALF OF THE STATE OF MARYLAND:
JONATHAN BEATTIE, ESQ.
CONSTANCE KOPELMAN, ESQ.
ON BEHALF OF THE DEFENDANT:
KEVIN COLLINS, ESQ.
CHASE JOHNSON, ESQ.
CLAIRE DEAN, ESQ.
ADAM STEMPEL, ESQ.
DANIEL RANDOLPH, ESQ.
ALSO PRESENT: Miguel Angel Santana
Transcribed by: Monica Voorhees

41a
[267] * * *
mention that you were present at the time that Miguel
Santana and Antonio Owens shot and killed Mookie?
A.

No.

Q.

Okay. Why didn’t you?

A. Because when they came to me they had told me
that they knew that I wasn’t there and they knew that
my car was in the shop, they just wanted to know what
happened.
Q. Okay. So you weren’t volunteering the information about your accessoryship?
A.

No.

Q. Okay. Now you understood that when you spoke
to officers at that time, that at that point in time
nothing you said could be used against you, correct?
A.

Correct.

Q. Has anyone made any agreements with you
about your testimony?
A.

Which, today?

Q.

Sure.

A.

Yeah, it’s in my plea agreement.

Q.

Okay, that you have to testify?

A.

Correct.

Q. Has anyone told you you won’t be charged in
connection with this based on your testimony?
[268] A. Yes.
Q.

Someone’s told you that?

A.

Yes.

Q.

42a
Who told you that?

A.

My, the other State’s Attorney, Mr. Granados.

Q.

Okay, so it wasn’t me, obviously.

A.

Correct.

Q.

All right. Now —

MR. BEATTIE:

The Court’s brief indulgence.

BY MR. BEATTIE:
Q. After the time that you spoke to Mr. Santana
about this, do you guys ever talk about this incident
again?
A.

No.

Q.

Okay.

MR. BEATTIE:

I have no further questions.

CROSS-EXAMINATION BY MR. COLLINS:
Q. Mr. San — Mr. Brawner, you’re testifying
pursuant to a plea agreement, right?
A.

I’m sorry?

Q. You’re testifying pursuant to a plea agreement,
right?
A.

Correct.
* * *

[272] MS. KOPELMAN:
MR. BEATTIE:
THE COURT:
MR. BEATTIE:

(Inaudible).

Yeah, you can —
But I think you need to clarify that.
Yeah.

(Whereupon, Counsel returned to trial tables and
the following occurred in open Court:)

43a
BY MR. COLLINS:
Q. Mr. Brawner, in March of 2016, you were facing
a prospect of spending the rest of your life in jail?
A.

Correct.

Q. And you wanted, you didn’t, you didn’t want
that?
A.

No.

Q. Instead you struck a deal with the State’s
Attorneys in Charles County?
A.

Yes.

Q.

You pled guilty?

A.

Yes.

Q.

To what?

A.

Manslaughter.

Q. Right. So as part of that deal, all these other 34
charges go away and you pled guilty to manslaughter?
[273] A. Correct.
Q. 10 years, suspend five and you do a portion of
the five, correct?
A.

Correct.

Q. Right. In fact your expectation is, your sentencing is in April, April of this year, right —
A.

Correct.

Q. — a few weeks from now. It’s been moved back
so you can testify in this case?
A.

Right.

Q. Your expectation is you’re going to walk out of
jail either at sentencing or shortly thereafter?

A.

44a
Yeah, that’s about right.

Q. Right, in fact, you know, you’ve been across the
street for three years and all the phone calls that you
make you know are recorded?
A.

Right.

Q. Right. And you know we subpoenaed those
calls.
A.

Okay.

Q. All right. And you were telling people at the end
of last year you were expecting to get out before the
end of the year?
A.

Correct.
* * *

[297] 100 percent truth today; do you recall that?
A.

Yes.

Q.

And you answered?

A.

Yes.

Q. You were reminded that your plea deal required
you to tell the truth?
A.

Correct.

Q.

But you didn’t tell the truth then?

A.

Correct.

Q. Just so we’re clear before we wrap up for the
day, I want to make sure we’re clear, you, it’s your
belief that Mr. Granados told you you would not be
charged in connection with this case?
A.

Correct.

Q.

And when did that conversation occur?

45a
A.

I don’t recall.

Q. And that’s why you’re not up here taking the
Fifth Amendment privilege against self-incrimination?
MR. BEATTIE:
THE COURT:

Objection.
Overruled.

BY MR. COLLINS:
Q. Right, otherwise, otherwise this testimony
could be used to, to charge you?
A.

Correct.

Q. But you have a deal with the State pursuant
[298] to Mr. Granados?
A.

Correct.

MR. COLLINS: Your Honor, at this point I think
we would like to adjourn for the evening.
THE COURT: All right. Well, yeah, that’s, this is
a good time, ladies and gentlemen.
And we will see you back at 11:30 tomorrow, thank
you.
And we’ll need Mr. Brawner back at 11:30 tomorrow.
(Whereupon, the following occurred outside the
presence of the Jury.)
MR. COLLINS: Your Honor, probably not necessary, but obviously Mr. Brawner’s still under oath
under examination, so we understand neither party
should be communicating with him until he comes
back tomorrow morning.
THE COURT:
MR. BEATTIE:

Yeah, nobody intends —
I — yeah, I know.

46a
UNIDENTIFIED MAN: Yeah, they won’t be having any contact.
MR. COLLINS: Thank you.
THE COURT: All right. Now there will be a lengthy
sentencing I believe occurring in this Courtroom at
9:00.
* * *

47a
APPENDIX D
IN THE CIRCUIT COURT
FOR CHARLES COUNTY, MARYLAND
————
Case No. 08-K-17-000083
08-K-11-1212
Volume 4
————
STATE OF MARYLAND,
vs.
MIGUEL ANGEL SANTANA,
Defendant.
————
OFFICIAL TRANSCRIPT OF PROCEEDINGS
JURY TRIAL
Thursday, March 28, 2019
————
BEFORE: HONORABLE AMY J. BRAGUNIER, Judge
APPEARANCES:
ON BEHALF OF THE STATE OF MARYLAND:
JONATHAN BEATTIE, ESQ.
CONSTANCE KOPELMAN, ESQ.
ON BEHALF OF THE DEFENDANT:
KEVIN COLLINS, ESQ.
CHASE JOHNSON, ESQ.
CLAIRE DEAN, ESQ.
ADAM STEMPEL, ESQ.
DANIEL RANDOLPH, ESQ.
ALSO PRESENT: Miguel Angel Santana
Transcribed by: Monica Voorhees

48a
* * *
[49] THE COURT:

Sure.

DEFENSE COUNSEL:
THE COURT:

Your Honor.

Yeah.

(Whereupon, Counsel approached the Bench and the
following occurred:)
DEFENSE COUNSEL: Your Honor, we just want
to put on the record this issue of his immunity for this
case, so the deal that we have says that, doesn’t
mention whether or not he’s going to be prosecuted for
his crimes associated with Mookie’s death.
Yesterday he testified on the stand that his understanding from the State’s Attorney Granados is that
he —
THE COURT: Who is not with the State’s Attorney’s
Office anymore.
DEFENSE COUNSEL:
Honor.
THE COURT:

I, no, I understand, Your

Right.

DEFENSE COUNSEL: We’re just putting on the
record what we understand, he understood that he
had immunity and we also last night reviewed phone
calls and his attorney, Monty Montgomery, tells him
in a phone call before he signs his deal —
THE COURT:

Is this like a jail call?

DEFENSE COUNSEL: It’s a jail call, Your [50]
Honor, so there’s no, it’s not a privileged issue.
Mr. Montgomery tells Mr. Brawner that his understanding is that the State will agree not to prosecute
him for any, any incident related to this case.

49a
So I don’t know what the State’s Attorney’s position
is on it, but the point is that if he does, in fact, have a
deal from the State related to the murder of Mookie,
that was never disclosed to the Defense, despite
repeated requests for all Brady material.
All we have is that he’s immunized for what
happened at Gittings Court.
THE COURT:

Okay.

DEFENSE COUNSEL:
THE COURT:

Thank you, Your Honor.

And again, I don’t know.

MS. KOPELMAN: I think — we’ll have to wait
for Mr. Beattie, but he’s asking for some deal that we
didn’t tell him about? The answer to that is no.
THE COURT: Well I know when that came up
that was something that was mentioned, that it was
Mr. Brawner’s understanding through, you know, Mr.
Granados.
DEFENSE COUNSEL: Right, which we could
have understood he might have some confusion, but
then when [51] we heard his own lawyer was telling
him on the phone that that’s how his lawyer understood the deal.
THE COURT:

That they understood it, okay.

DEFENSE COUNSEL:

That suggested —

THE COURT: And no suggestion there’s anything
in writing or that that was made clear. And you do
have Mr. Granados on the list —
DEFENSE COUNSEL:
THE COURT:

Right.

— of potential witnesses.

DEFENSE COUNSEL:

Right.

THE COURT:

50a
So he might be able to —

DEFENSE COUNSEL: And we called, we did try
to reach out to Mr. Montgomery; he didn’t return our
phone call, we just wanted to know if there was
something else there, but we don’t know.
THE COURT: And he’ll probably testify consistent
with what he said, which is that maybe it was his
understanding.
But here’s Mr. Beattie. They’re just, they’re raising
an issue that they weren’t provided in discovery any
deal that Mr. Brawner was granted immunity for
testifying in this case as to this case, but —
MR. BEATTIE: That’s, was not — I mean we gave
them the full copy. That was not the deal.
[52] DEFENSE COUNSEL: Well his lawyer thinks
that it was part of the deal.
MR. BEATTIE:

Huh?

DEFENSE COUNSEL:
of the deal.

His lawyer thinks it’s part

MR. BEATTIE: That’s not what, I told you I gave
you the letter from Mr. Granados.
DEFENSE COUNSEL:
MR. BEATTIE:
what I know.

I, I get it.

Yeah, so I mean I can only tell you

THE COURT: Okay. Unless you want to bring Mr.
Granados in or Mr. Montgomery in.
MR. BEATTIE:

I mean I — it’s up to you.

THE COURT: But I think Mr. Montgomery would
just say what he was — that it was his understanding,
but again, that doesn’t mean there was a deal.

MR. BEATTIE:

51a
Yeah.

MS. KOPELMAN: Well I don’t know why they
would testify, Mr. Brawner already testified he thought
it was the deal.
MR. BEATTIE: Yeah, and it doesn’t really matter —
MS. KOPELMAN:

I mean he thought —

MR. BEATTIE: — I mean, frankly, what his stuff
is, I mean.
[53] THE COURT:
MR. BEATTIE:

Okay.

My understanding is what

Mr. Granados told me and that’s what he got
(inaudible) when I asked him.
DEFENSE COUNSEL:
MR. BEATTIE:
can do.
THE COURT:

Okay, fine.

So I mean there’s nothing else we
All right. Thank you.

Do you have another witness?
(Whereupon, Counsel returned to trial tables and
the following occurred in open Court:)
MR. BEATTIE:

Yes, but actually —

(Whereupon, Counsel approached the Bench and the
following occurred:)
MR. BEATTIE: Just so you know, it’s Edith
Johnson, it takes her a little bit. Her son is going to
walk her in, I don’t intend to call her son as a witness.
DEFENSE COUNSEL:
MR. BEATTIE:
THE COURT:

Fine.

But just so you —
What’s the issue?

52a
DEFENSE COUNSEL: She’s probably elderly.
MR. BEATTIE:
THE COURT:
MR. BEATTIE:

She, she has a walker.
Okay, okay.
But her son’s going to just
* * *

53a
APPENDIX E
IN THE CIRCUIT COURT
FOR CHARLES COUNTY, MARYLAND
————
Case No. 08-K-17-000083
08-K-11-1212
Volume 6
————
STATE OF MARYLAND,
vs.
MIGUEL ANGEL SANTANA,
Defendant.
————
OFFICIAL TRANSCRIPT OF PROCEEDINGS
JURY TRIAL
Monday, April 1, 2019
————
BEFORE: HONORABLE AMY J. BRAGUNIER, Judge
APPEARANCES:
ON BEHALF OF THE STATE OF MARYLAND:
JONATHAN BEATTIE, ESQ.
CONSTANCE KOPELMAN, ESQ.
ON BEHALF OF THE DEFENDANT:
KEVIN COLLINS, ESQ.
CHASE JOHNSON, ESQ.
CLAIRE DEAN, ESQ.
ADAM STEMPEL, ESQ.
DANIEL RANDOLPH, ESQ.
ALSO PRESENT: Miguel Angel Santana
Transcribed by: Monica Voorhees

54a
* * *
[300] So I want you to focus, and I believe this is the
video where you’re going to see Antonio Owens coming
through here after the homicide has taken place.
Rashaad Brawner’s just creeping along, right. He
knows what he’s let them out to do, but they have not
returned yet.
Right here. You see they’re running right over here
and that’s Antonio Owens making his way, he’s
coming through the cut and he’s going to hook up with
Rashaad Brawner who is now doing a U-turn. And so
we’re going to wait for Rashaad Brawner’s gold vehicle
to come back after he’s picked up Antonio Owens.
And he’s getting in the car and then he’s going to
come back this way. And is that the final video?
MR. BEATTIE:

Uh-huh, there’s the other side.

MS. KOPELMAN: And of course that corroborates, again, Rashaad Brawner, because as you heard,
his friend over here, Miguel Santana, had gone in a
different direction of Red Lion Place and so he wasn’t
in the vantage point to get in the car with Rashaad
Brawner, he, so he conducts that U-ie and [301] picks
up Antonio Owens.
Ladies and gentlemen, the Defendant wants you
to forget that every piece of evidence in this case
corroborates a man who had no motive to kill Mookie,
who had no motive to lie about his good friend Miguel
Santana, had no motive to lie about Miguel Santana’s
brother-in-law, Antonio Owens, his friend since
middle school.
Every bit of evidence corroborates Rashaad Brawner.
All of the witnesses on the scene, the ballistics, the

55a
videos, it corroborates it because the Defendant
committed the First-degree Murder of Mookie Wood.
He wants you to let him get away with murder. But,
ladies and gentlemen, I’m asking you to look at the
evidence and find him guilty, because at the end of
the day, Lydell Wood mattered, right, he certainly
mattered to his son, he mattered to his mother, Gail
Fenwick, and he matters to justice. And justice
demands that the Defendant be held accountable for
committing this murder in cold blood in broad daylight
in front of Mookie’s mother.
Because of what the Defendant did, Mookie Wood’s
last actions on earth were running away from being
shot at by the Defendant and his brother-in-law. [302]
Because of what the Defendant did, Mookie Wood’s
last steps were through a door trying to reach his
mother and yelling out mom.
And we know because of the Defendant, Mookie
Wood never made it fully out of 2673 Rooks Head
Place. The State has proven beyond a reasonable
doubt, ladies and gentlemen, when you look at every
single piece of evidence and the full corroboration of
Rashaad Brawner that the Defendant is guilty as
charged and I ask you to find him guilty.
Thank you.
THE COURT: Ladies and gentlemen, are you good
to continue or do you want a break?
DEFENSE COUNSEL: Your Honor, could we just
poll the jury just on their availability for the evening
so we can get a sense of whether we should continue?
THE COURT: Is anybody — would anybody need
to make a phone call or would you be available to stay
this evening to continue hearing the closing?

56a
MR. COLLINS: Well, Your Honor, just to be clear,
I don’t know how long Mr. Beattie’s going to be, I’ll be
40 minutes, if he’s going to be an hour, we’re talking
about 8:00, so.
THE COURT:

Counsel approach, please.
* * *

57a
APPENDIX F
IN THE CIRCUIT COURT
FOR CHARLES COUNTY, MARYLAND
————
Case No. 08-K-17-000083
08-K-11-1212
Volume 8
————
STATE OF MARYLAND,
vs.
MIGUEL ANGEL SANTANA,
Defendant.
————
OFFICIAL TRANSCRIPT OF PROCEEDINGS
JURY TRIAL
Wednesday, April 3, 2019
————
BEFORE: HONORABLE AMY J. BRAGUNIER, Judge
APPEARANCES:
ON BEHALF OF THE STATE OF MARYLAND:
JONATHAN BEATTIE, ESQ.
CONSTANCE KOPELMAN, ESQ.
ON BEHALF OF THE DEFENDANT:
KEVIN COLLINS, ESQ.
CHASE JOHNSON, ESQ.
CLAIRE DEAN, ESQ.
ADAM STEMPEL, ESQ.
DANIEL RANDOLPH, ESQ.
ALSO PRESENT: Miguel Angel Santana
Transcribed by: Monica Voorhees

58a
* * *
[20] somebody said they was going to go get they
gun. I don’t know who said it, but that’s how that’s, all
that, all that stemmed, okay. Boom.
UNIDENTIFIED MAN:
just prior or —

So there was an argument

UNIDENTIFIED MAN:
before.

No, this was a few weeks

(Whereupon, this concludes the playing of the audio
recording for the Jury.)
THE COURT:
MR. BEATTIE:

And that’s it, thank you.
Yes, Your Honor.

DEFENSE COUNSEL:
THE COURT:

Yes, Your Honor.

Thank you, Mr. Brooks.

All right. And, ladies and gentlemen, I also received
a note we are at a stand-still and can’t come to an
agreement on all charges. People are firm on their
decisions.
I’m going to, in response to that, read you this
instruction, which you also have, is that the verdict
must be the considered judgment of each of you. In
order to reach a verdict, all of you must agree; in other
words, your verdict must be unanimous.
You must consult with one another and deliberate
with a view to reaching an agreement if you can do
so without violence to your individual [21] judgment.
Each of you must decide the case for yourself, but do
so only after an impartial consideration of the evidence
with your fellow jurors.

59a
During deliberations do not hesitate to reexamine
your own views. You should change your opinion if
convinced you were wrong, but do not surrender your
honest belief as to the weight or effect of the evidence
only because of the opinion of your fellow jurors or for
the mere purpose of reaching a verdict.
Can Counsel approach, please?
(Whereupon, Counsel approached the Bench and the
following occurred:)
THE COURT: When I read this it says that we
can’t come to an agreement on all charges, which tells
me they may have an agreement on some, so we could
at some point take the option of, if they want to, we
could have them submit a partial verdict.
MR. BEATTIE:
if we get to it.
THE COURT:
MR. BEATTIE:
and say —
THE COURT:

We can cross that bridge when and
But I’m just saying.
I don’t want to touch it right now
Right. I’m just putting that
* * *

60a
APPENDIX G
SEVENTH JUDICIAL CIRCUIT OF MARYLAND
Court House
P.O. Box 3060
La Plata, MD 20646
————
Criminal No. K16-309
————
STATE OF MARYLAND
vs.
RASHAAD JOVONNI BRAWNER
Defendant
————
PLEA / SENTENCE AGREEMENT
Defendant will plead guilty pursuant to Alford v.
North Carolina to: Amended Count 1 — Manslaughter
[CR § 2-207]
State will dismiss other charge(s) / case(s) as follows:
all remaining counts in K16-309.
Court will: impose a period of incarceration of
ten (10) years with all but the first five (5) years
suspended. The Court will impose a period of probation. The duration and conditions of probation will
be at the Court’s discretion. The parties will be
otherwise free to allocate.
Other: Defendant agrees to testify truthfully, if
called to do so, in any case brought by the State of
Maryland against Miguel Angel Santana. Sentencing
will be deferred in order for the defendant to comply
with the terms of this agreement. The defendant will

61a
continue to be held at the Charles County Detention
Center pending sentencing.
There is no other sentencing limitation except that
provided by law.
State’s Attorney:

/s/ [Illegible]

Defendant:

/s/ [Illegible]

Defense Attorney:

/s/ [Illegible]

Judge:

/s/ [Illegible]

Date:

1-17-17

Note: A) All plea agreements subject to the review
of the Pre-Sentence Investigation Report.
Should the Judge, after reviewing the
report, find something that would prevent
her from adhering to the agreement, the
Defendant would have the option of
withdrawing the plea.
B) Active Time equals any unsuspended portion of any sentence imposed by the court.
C) Cap equals the limit/maximum of active
time imposed by the Court.
D) G/L equals Maryland Sentencing Guidelines.

62a
IN THE CIRCUIT COURT FOR
CHARLES COUNTY, MARYLAND
————
Criminal No. K16-309
————
STATE OF MARYLAND
vs.
RASHAAD JOVONNI BRAWNER
————
WAIVER OF RIGHTS AT PLEA
I understand by pleading guilty, I give up my right
to have a trial. By giving up my right to trial, I am also
giving up the following rights:
1. The right to require the State (the prosecutor)
to prove beyond a reasonable doubt that I am
guilty of the offense with which I am charged
and to which I am pleading guilty.
2. The right to have any accusers (the State’s witnesses against me) to come before me in open
Court and to show me and tell me all of the
evidence that is being presented against me.
3. The right to cross-exam the witnesses against
me, which means ask those witnesses any reasonable questions about the evidence they are
presenting against me.
4. The right to call witnesses to testify on my
behalf and the right to have the Court issue
summonses to make those witnesses come to
Court.
5. The right to remain silent and not testify.

63a
6. The right to have a jury told that if I do not
testify that my failure to testify could not be
held against me.
7. The right to take the witness stand and testify
on my own behalf.
8. The right to be tried by a jury of 12 individuals
chosen at random from the community who
would help pick and could not find me guilty
unless each of them is convinced of my guilt
beyond a reasonable doubt.
9. The right to have my case decided by the Court
alone.
10. The right to present any legal defenses.
11. The right to complain about any police conduct
including searches, identifications, the taking
of any statements, or anything else the police
may or may not have done.
12. The right to complain about the prosecution of
the case, including any defects in the charging
document, deprivation of a speedy trial, or
anything else the State may have done or not
done.
13. The right to note a direct appeal to the Court of
Special Appeals.
/s/ [Illegible] 1-17-17
DEFENSE ATTORNEY (DATE)
/s/ [Illegible] 1-17-17
DEFENDANT (DATE)

64a
I acknowledge the following:
1. I understand all of the above rights.
2. That by pleading guilty, I am waiving all of the
above listed rights, freely and voluntarily.
3. That the maximum penalty for the offenses to
which I am pleading guilty is ten (10) years of
incarceration.
4. My attorney has advised me of and I fully
understand the nature of the charges pending
against me.
5. My attorney has reviewed with me and
explained to me: (a) the discovery materials
provided to me by the State; (b) the evidence
the State can offer against me at trial; (c) the
ways in which we might attack the State’s evidence against me at trial; (d) all possible
defenses that I might raise at trial; (e) all possible witnesses and evidence that my attorney
could present on my behalf at trial; and (f) the
reasons for and against entering into this guilty
plea instead of having a trial.
6. My attorney has advised me of and I fully
understand each and every element of each
offense to which I am pleading guilty.
7. I understand that if I am on parole or probation
in another case, a guilty plea in this case could
result in my being found in violation of my
probation.
8. I understand that if I am not a citizen of the
United States of America a guilty plea in this
case could have consequences on my immigration status.

9.

65a
I understand that I will not be able to appeal my
case, but I can ask for an Appellate Court to
review this plea and that request must be in
writing and filed within thirty (30) days of
today.

10. I understand that after the Court sentences me
I have a right to file an application requesting
that three judges of this Circuit review my
sentence. I understand that the judge who
sentences me cannot be one of the three judges
who review my sentence. I understand that
if my application is granted, the three judge
panel can increase my sentence, decrease my
sentence, or leave it the same. I understand
that I must file such an application within
thirty (30) days of my sentencing.
11. I understand that after the Court sentences
me I have a right to file a motion requesting
that the Court reconsider and modify my sentence. I understand that I must file such a motion
within ninety (90) days of my sentencing.
/s/ [Illegible] 1-17-17
DEFENSE ATTORNEY (DATE)
/s/ [Illegible] 1-17-17
DEFENDANT (DATE)

